Survey of Enforcement’s
Hub System




                                         September 29, 2008
                                             Report No. 449

Survey of Enforcement’s Hub System             September 26, 2008
Report No. 449
                                     i
                                               UNITED STATES
                             SECURITIES A N D EXCHANGE COMMISSION
                                        W A S H I N G T O N , D.C.   20549


     OFFICE OF
INSPECTOR GENERAL
                                      MEMORANDUM
                                           September 29, 2008

          To:             Linda Thomsen, Director, Division of Enforcement

          From:           H. David Kotz, Inspector ~ e n e r - &

          Subject:        Survey of Enforcement's Hub System, Report No. 449

          This memorandum transmits the Securities and Exchange Commission, Office of
          lnspector General's (OIG) Survey of Enforcement's Hub System report detailing
          the results of our review of the Division of Enforcement's (Enforcement) new
          investigative database system, the Hub.

          The final report consists of 5 recommended actions that were-addressed to
          Enforcement. Enforcement concurred with recommended actions 3, 4 and 5 and
          indicated that appropriate action will be taken. Enforcement partially concurred
          with recommended actions 1 and 2.

          In addition to responding to the recommendations, Enforcement provided
          comments to the draft report. Your written responses to the draft report, dated
          September 18, 2008, are included in its entirety in Appendix IV. OIG's response
          to management's comments is included in Appendix V.

          Should you have any questions regarding this report, please do not hesitate to
          contact me. We appreciate the courtesy and cooperation that you and your staff
          extended to our auditor during this survey.


          Attachment

          cc:,      PeterUhlmann,ChiefofStaff
                    Diego Ruiz, Executive Director, Office of the Executive Director
                    Scott Friestad, Deputy Director, Enforcement
                    Joan McKown, Chief Counsel, Enforcement
                    Donna Norman, Counsel to Director and Deputy Directors, Enforcement
                    Elizabeth Badawy, Supervisory Staff Accountant, Enforcement
                    Darlene Pryor, Management Analyst, Office of the Executive Director

                    Rick Hillman, Managing Director of Financial Markets and Community
                      Investment, GAO
                    Orice Williams, Director of Financial Markets and Community Investment,
                     GAO
Survey of Enforcement’s Hub System

                               Executive Summary
Background. In 2007, the Government Accountability Office (GAO) evaluated
the Division of Enforcement’s (Enforcement): (1) investigation planning and
information systems, and (2) oversight of the Fair Fund program.1 In performing
the evaluation, the GAO found that Enforcement’s processes and systems for
planning, tracking, and closing investigations had some significant limitations that
hampered its ability to effectively manage operations and allocate resources.
Enforcement had used the Case Activity Tracking System (CATS) as the primary
source to plan, manage and track investigative cases electronically.
Enforcement developed the Hub system to address the limitations identified with
the case management and tracking system, as well as to address the GAO’s
report recommendations.

After discussions with GAO, the Office of Inspector General (OIG) decided to
conduct a survey of the Hub, Enforcement’s case management tracking system.
Since the Hub was launched to Enforcement system users within the last year
(October 2007 to January 2008), we sent a web based questionnaire to 1,261
authorized Enforcement users, which was opened for response from June 6,
2008 to June 27, 2008 to get feedback regarding Enforcement’s written Hub
policies, the use of the Hub by Enforcement personnel, user training/feedback,
and the system’s capabilities. This report summarizes the results of the survey
and provides recommended actions based upon user feedback in an effort to
improve the Hub system.

Objective. Our objectives were to follow-up on a GAO audit recommendation in
GAO-07-830 which pertained to the Hub system.2 We surveyed Enforcement
staff to:

    •   Determine whether Enforcement established written procedures and a
        control process that others can use to independently assess the reliability
        of investigative data maintained in the Hub system;
    •   Identify staff’s use of the Hub system;
    •   Examine the Hub’s capabilities and determine whether the Hub meets
        user needs; and
    •   Assess whether improvements are needed.

1
  GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007,
Highlights section.
2
  GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, p.
37.

Survey of Enforcement’s Hub System                                              September 29, 2008
Report No. 449
                                                  ii
We did not conduct our work as a performance audit, but as a survey using non-
audit service. Therefore, this survey was not done in accordance with generally
accepted government auditing standards.

Results. Beginning in October 2007, Enforcement launched the Hub system to
staff within its Division who were either directly or indirectly involved with
processing investigative cases. While approximately 46 percent (577 of 1,261) of
Enforcement staff responded to the survey, 62 percent (356 of 577) of these
respondents were attorneys, branch chiefs or accountants. This is significant
since the individuals who responded to the survey have a direct impact on the
investigative process and the Hub system requires attorneys to populate case
data into the system.

The results of the survey revealed that overall, a majority of Hub users are
satisfied with the Hub system and feel the Hub system features are an
improvement over CATS. However, a large number of respondents indicated
that although they were pleased with the Hub, before the system can become the
fully robust and the necessary management tool that is required within the
Division, significant improvements are needed.

Furthermore, the survey resulted in a large number of neutral responses with
respect to the Hub’s overall usefulness which Enforcement should review to
ensure that the system is being fully utilized and its capabilities are meeting user
needs.3 For example in 10 of 12 questions that had “neutral” as a choice,
respondents overwhelmingly selected the neutral response.

Other survey responses revealed that:

    •    While approximately 62 percent of the respondents stated they
         personally used the Hub system, only 47 percent actually enter any
         data into the system, and 23 percent of those only use it
         occasionally. Similarly, only 41 percent use the Hub system to
         obtain information, with 25 percent of those only occasionally.

    •    Although 51 percent of respondents stated that they either used or
         were aware that a Hub system user manual is available, when
         asked whether they found the Hub user manual to be helpful, only
         15 percent agreed or strongly agreed that the manual was very

3
 Although a neutral response may simply mean that the respondent has no opinion on the question one
way or the other, we believe that it would behoove Enforcement to review these results to determine if these
neutral responses are indicative of respondents not utilizing the system to its full extent or needing more
guidance or information.

Survey of Enforcement’s Hub System                                                   September 29, 2008
Report No. 449
                                                     iii
       useful, while 68 percent of respondents answered “neutral” and an
       additional 17 percent stated that they disagreed or strongly
       disagreed with the statement that the manual was useful.

   •   A significant percentage (44 percent) use CATS for monitoring and
       tracking investigations and a much smaller percentage (19 percent)
       enter data into CATS instead of the Hub system, on at least an
       occasional basis.

   •   The report area of the Hub is still not being fully utilized as only 18
       percent of respondents affirmatively stated that the Hub system
       allows them to easily search data and produce detailed reports and
       76 percent of respondents stated they have not attempted to
       produce reports or check the status of investigations using the Hub
       system.

We also found that although Enforcement had developed a user manual, held
training presentation sessions on use of the Hub, and utilized e-mail, conference
calls and the Division newsletter to communicate the Hub’s progress and
expectations to user, they have not developed and issued written formal
guidance, such as an operating procedure or policy regarding the Hub as was
recommended in the GAO report. Additional formal written policies may help
ensure that Hub users understand how to properly utilize the system to achieve
its goals.

Enforcement agreed with 3 of the report’s 5 recommended actions and partially
agreed with the other 2 recommended actions. Management’s responses to the
report are included in its entirety in Appendix IV. OIG’s response to
Management’s comments is included in Appendix V.




Survey of Enforcement’s Hub System                                 September 29, 2008
Report No. 449
                                          iv
TABLE OF CONTENTS

Executive Summary ...................................................................................................... ii

Table of Contents ......................................................................................................... v

Background and Objectives .......................................................................................... 1

Survey Results and Recommended Actions ................................................................. 4

         Although Some Respondents Are Aware Of Current Policies and
         Guidance, Written Operating Procedures Would Assist In Ensuring That
         Hub Users Understand How To Properly Utilize The System ............................ 4
                     Figure 1, Hub Users That Received Training................................ 6
                     Recommended Action 1 .............................................................. 7

         Actions Should Be Taken To Further Ensure That the Data Is Entered Into
         the Hub System in a Timely and Consistent Manner ......................................... 7
                     Figure 2, User Manual – Authorities Consulted & Referrals ....... 10
                     Recommended Action 2 ............................................................ 10

         Standardized Reports Must Be Finalized ......................................................... 10
                     Recommended Action 3 ............................................................. 12

         Respondents Find Hub System Useful ............................................................ 12
                    Recommended Action 4 ............................................................. 14

     Open-Ended Write-In Comments .................................................................... 14
                   Table 1, Respondents 10 Most Useful Features......................... 15
                   Table 2, Respondents 10 Least Useful Features........................ 16
                   Recommended Action 5 ............................................................ 16
Appendices
     Appendix I: Acronyms. ..................................................................................... 17
     Appendix II: Scope and Methodology............................................................... 18
     Appendix III: List of Recommended Actions..................................................... 20
     Appendix IV: Management Comments............................................................. 22
     Appendix V: OIG Response to Management Comments ................................. 29
     Appendix VI: Respondent’s Top Survey Comments ........................................ 30




Survey of Enforcement’s Hub System                                                          September 29, 2008
Report No. 449
                                                         v
                 Background and Objectives

Background
As part of the OIG annual audit work plan and after discussions with the GAO,
we conducted a survey of the Enforcement’s Hub system, which is a newly
implemented case management tracking system. In the report GAO-07-830,
Securities and Exchange Commission -- Additional Actions Needed to Ensure
Planned Improvements Address Limitations in Enforcement Division Operations,
August 2007, the GAO reviewed Enforcement’s investigation planning,
information systems and oversight of the Fair Fund program and found there
were significant limitations in Enforcement’s processes and systems to plan,
track, and close investigations, which could hamper its ability to effectively
manage operations and allocate resources. GAO’s report further highlighted
major issues with Enforcement’s case management and tracking system and
made four recommendations.

The OIG report followed-up on the GAO report’s second recommendation
covering the Hub system as follows:

   •   Establish written procedures that reinforce the importance of attorneys
       entering investigative data into the Hub;
   •   Provide guidance on how to do so in a timely and consistent way; and
   •   Establish a control process by which other division officials can
       independently assess the reliability of investigative data maintained in the
       system.

Specifically, our work focused on the Hub system, Enforcement’s newly deployed
case management tracking system that allows staff to plan, track and close
investigations.

Use of the Case Activity Tracking System. For several years Enforcement
had used the Case Activity Tracking System (CATS) database as Enforcement’s
primary source to plan and track investigative cases. CATS is a commercial-off-
the-shelf package that supports Enforcement offices at the Commission’s
headquarters and throughout its regional locations, by providing staff with a
mechanism to track cases, debt, and workflow management. Though CATS is
connected to the Hub, the databases store different data. CATS’ capabilities
include case tracking and workflow management for all aspects of investigative
cases. In its current state, CATS contains information on ongoing investigations
and enforcement actions such as, the general nature of the potential violations
(i.e., insider trading). It also tracks the dates investigations are opened and the
progress of a matter under inquiry, investigations, and enforcement actions.

Survey of Enforcement’s Hub System                               September 29, 2008
Report No. 449
                                         1
Some of the deficiencies associated with CATS include its inability to produce
detailed reports for different types of investigations and the inability to identify the
status of investigations.

The Hub System Capabilities. The Hub is a web-based application database
that displays case identification information currently stored in CATS, while
enabling staff to input a wide variety of investigative information that can be used
to help them manage their caseloads on a daily basis. The Hub is accessible to
all Enforcement staff and allows them to manage their caseload directly, as well
as, to search and view “read only” versions of CATS data and the Division’s
caseload. The system further includes data fields that can be used to identify
when informal referrals for potential criminal activity are made and can produce
detailed management reports on ongoing investigations.
The Hub’s main objectives are to:
   •   Provide a user-friendly case management system to more efficiently track
       the status of all Enforcement cases;
   •   Allow staff to easily access all of their assigned cases and track important
       information relating to statute of limitations, tolling agreements, Wells
       notices, and investigative and Enforcement status in a single, easily
       accessible place;
   •   Provide a single user-friendly interface with the case management and
       tracking systems;
   •   Allow staff to more efficiently share information across the Division;
   •   Provide managers with real-time access to Enforcement data, with which
       to assess the program and its consistency across regions and case types;
       and
   •   Allow staff and managers to more easily report relevant information to the
       Commission, Congress, GAO and others.

Hub Deployment and OIG Survey. From October 2007 to January 2008,
Enforcement deployed the Hub system to personnel/users located at the
Commission’s headquarters and regional offices. We sent a web based
questionnaire to 1,261 authorized system users at the Commission from June 6
to June 27 2008, to obtain feedback regarding Enforcement’s written policy, the
Hub’s capabilities, and user training and feedback. The survey was issued to
Enforcement staff at headquarters in Washington D.C. and the Commission’s 10
regional offices.




Survey of Enforcement’s Hub System                                   September 29, 2008
Report No. 449
                                           2
Objectives
Our objectives were to follow-up with GAO’s audit recommendation in GAO-07-
830 which pertained to the Hub system.4 We surveyed Enforcement staff to:

    •   Determine whether Enforcement established written procedures and a
        control process that others can use to independently assess the reliability
        of investigative data maintained in the Hub system;
    •   Identify staff’s use of the Hub system;
    •   Examine the Hub’s capabilities and determine whether the Hub meets
        user needs; and
    •   Assess whether improvements are needed.

Overall, forty-six percent (577 of 1,261) of authorized users to the system
responded to the survey. Sixty-two percent of the respondents to the survey
were attorneys, branch chiefs and accountants, which is significant since
Enforcement management requires attorneys to populate case data instead of
support personnel.




4
 GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, p. 4.

Survey of Enforcement’s Hub System                                              September 29, 2008
Report No. 449
                                                  3
Survey Results and Recommended Actions
Although Some Respondents Are Aware Of
Current Policies and Guidance, Written
Operating Procedures Would Assist In
Ensuring That Hub Users Understand How To
Properly Utilize The System.

The GAO report found that Enforcement had not established written
controls to ensure investigative data is entered into the CATS system in a
timely manner. 5 Prior to launching the survey, we discussed this issue
with Enforcement management who indicated that the Hub, the Division’s
new case management system, makes it easier for staff to record relevant
data in a timely manner. Staff and managers can readily see in “real-time”
whether the information relating to their respective investigations is current
and complete. Additionally, the Hub currently generates quarterly reports,
which make it easy for managers and staff to validate whether the Hub
entries are current for their respective investigations. The Hub contains a
number of additional controls, including:
    •   Built-in controls – controls built into the system, such as access
        controls and role definitions established by case.
    •   Established controls - informal or verbal instructions that are
        understood within the Division, but are not made into a formal
        policy document.
    •   Written controls – documented procedures such as the user
        manual.

The Hub’s built–in controls allow staff to view CATS data, which generally
is case identification information and/or information relevant to case
resolution. However, the CATS data cannot be changed within the Hub
system. Thus, although CATS information is viewable in the Hub, it
cannot be altered. The staff can enter a variety of investigation status
information directly into the Hub.

Our survey polled respondents on six questions regarding the control
areas described above that were used to gauge how controls were
addressed within the Hub system. The survey found that while a majority
of the respondents (between 58 and 59 percent) were aware that certain

5
 GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, p. 4.

Survey of Enforcement’s Hub System                                              September 29, 2008
Report No. 449
                                                  4
written policies and controls had been developed, significant percentages
of the respondents (between 40 and 43 percent) were either unaware of
these policies, or controls or did not agree that they were in place.

Specifically, the survey results found as follows:

   •   Fifty-nine percent of respondents were aware that Enforcement
       developed written policy that "division attorneys" must enter
       relevant data into the Hub system for all new investigations when
       they are opened, while 37 percent were not aware of this policy and
       5 percent disagreed or strongly disagreed that the policy was in
       place.

   •   Fifty-eight percent were aware that Enforcement has developed
       and issued written controls that inform staff to enter investigative
       data in the Hub system in a timely and/or consistent manner, while
       38 percent were unaware of these controls, and 5 percent
       disagreed or strongly disagreed that these controls were
       developed.

   •   Fifty-nine percent were aware that Enforcement established policy
       that makes attorneys responsible for entering data into the system
       for ongoing investigations that were initiated before the Hub system
       was implemented and are still being actively pursued, while 36
       percent were unaware of this policy and 4 percent disagreed or
       strongly disagreed that this policy had been established.

In two other questions about written procedures and the user manual, the
respondents provided some concern about the awareness and usefulness
of these procedures.

With respect to the Hub system user manual, although 51 percent of
respondents stated that they either used or were aware that a Hub system
user manual is available, when asked whether they found the Hub user
manual to be helpful, only 15 percent agreed or strongly agreed that the
manual was very useful. Sixty-eight percent of respondents answered
“neutral” to this question, and an additional 17 percent stated that they
either disagreed or strongly disagreed with this statement.

In addition, 33 percent of respondents indicated neutral responses when asked
whether they used or were aware of a user manual (in addition to 15 percent who
disagreed or strongly disagreed that they used or were aware of the manual);
whereas 65 percent of the staff that were polled indicated they received training.
See Figure 1 below. Given the fact that the user manual was provided as part of

Survey of Enforcement’s Hub System                               September 29, 2008
Report No. 449
                                         5
the Hub training and is accessible both within the Hub and EnforceNet, the
percentage of neutral responses is relatively high. This may be an indication that
Enforcement must take additional measures to ensure that Hub users are aware
of the user manual and can access it with ease.

                    Figure 1. Hub Users That Received Training
                                   HUB user received training




                                36%
                                                                            Yes
                                                                            No
                                                       64%




                  Source: OIG Generated

We also received specific comments from respondents which indicated that
although they were aware of the user manual, there was still a need for additional
Hub guidance.

Accordingly, although Enforcement had developed a user manual, held
mandatory live training presentation sessions on use of the Hub, and
utilized e-mail, conference calls and the Division newsletter to
communicate information about the Hub to the users, the survey results
demonstrate that there is still work to be done to ensure that Hub users
become aware of and utilize policies, procedures and manuals that are
necessary to ensure that the Hub system is used effectively.

Enforcement has not developed and issued written formal guidance, such as an
operating procedure or policy regarding the Hub as was recommended in the
GAO report.6 Although Enforcement has developed a user guide, additional
written policies may help ensure that Hub users understand how to properly
utilize the system to achieve its goals.



6
 GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, p.
37.

Survey of Enforcement’s Hub System                                               September 29, 2008
Report No. 449
                                                  6
Recommended Action 1:

A. Based upon the information provided in the survey results, develop formal
   policies for entering information into the Hub system, which could include:

        1. Written policy that "division attorneys" must enter relevant data into the
           Hub system for all new investigations when they are opened;
        2. Written policy that requires staff to enter investigative data in the Hub
           system in a timely and/or consistent manner; and
        3. Written policy that makes attorneys responsible for entering data into
           the system for ongoing investigations that were initiated before the Hub
           system was implemented and are still being actively pursued.

B. The formal policy should also clearly define the roles and responsibilities of
   staff assigned to an investigation (i.e. accountant, attorney, case
   management specialist).

C. Ensure that Hub system users are aware of and have access to the manual
   and/or policy.


Actions Should be Taken to Further Ensure
that the Data Is Entered into the Hub System in
a Timely and Consistent Manner
In the investigative community, timeliness of data is essential. The GAO
determined there was a risk that data may not be entered into the Hub
system on a timely and consistent basis, especially regarding
Enforcement’s ability to produce relevant management reports and
documenting referrals of potential criminal matters. 7
The OIG survey had six questions that dealt with timeliness of data. They
varied from basic use to effectiveness of the system. The following are
four relevant questions and answers:

Q1). I personally use the Hub system.

                                   Total
          Yes         No         Responses
          331         207           538
         61.5%       38.5%         100%


7
 GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, pgs.
7 & 19.

Survey of Enforcement’s Hub System                                             September 29, 2008
Report No. 449
                                                  7
Q2). I enter data into the Hub system.

                                                                                      Total
        Daily       Weekly      Monthly        Occasionally   Rarely    Never       Responses
         4           38           90               134          59       245           570
         0.7%         6.7%       15.8%            23.5%        10.4%     43.0%       100.1%*
       * Variance Occurred Due to Rounding.


Q3). I use the Hub system to obtain information.

                                                                                      Total
        Daily       Weekly      Monthly        Occasionally   Rarely    Never       Responses
         12           35          46               140         109       231           573
        2.1%         6.1%        8.0%             24.6%       19.0%     40.3%        100.1%*
       * Variance Occurred Due to Rounding.


Q4). I document referrals into the Hub system.

                                              This Task Cannot Be      Not Attempted To
       Daily     Weekly       Monthly              Performed           Perform This Task         Total
         0         5            20                     13                     461                 499
        0%        1%            4%                     3%                     92%                100%



The results revealed that while approximately 62 percent of the
respondents stated they personally used the Hub system, only 47 percent
actually enter data into the system at all, and 23 percent of those only use
it occasionally. Similarly, 59.8 percent use the system to obtain
information and the largest number of respondents, 25 percent, does so
occasionally.

Thus, while personnel are using the system in some manner, a significant
percentage of respondents are not using the system as it is intended and
in fact, 40 and 43 percent respectively responded they never use or obtain
data from the system. These results demonstrate concerns about the
efficacy of the Hub system.

When asked questions comparing the Hub system with CATS, the survey
revealed a very high percentage of “neutral” responses, as illustrated
below:




Survey of Enforcement’s Hub System                                              September 29, 2008
Report No. 449
                                                     8
Q5). I find using the Hub system data is more timely and consistent than in
     CATS.

           Strongly                                              Strongly
            Agree            Agree       Neutral   Disagree      Disagree         Total
              21               87         361         38            18             525
             4.0%            16.6%       68.8%       7.2%          3.4%           100%



Q6). The Hub system allows me to readily document referrals for potentially
criminal matters and/or case actions.

           Strongly                                              Strongly
            Agree            Agree       Neutral   Disagree      Disagree         Total
               7               66         423         21            15             532
             1.3%            12.4%       79.5%       3.9%          2.8%          99.9%*
        * Variance Occurred Due to Rounding.


While it is encouraging that the percentage of responses who felt the Hub
system is more timely and consistent than CATS was approximately twice
the percentage of those who felt the opposite (21 percent to 11 percent
respectively), nearly 70 percent answered this question with a “neutral”
response. Similarly, nearly 80 percent responded “neutral” when asked if
the Hub system allows them to document referrals for potentially criminal
matters or case actions.

Enforcement management has stated that they have stressed the
importance of keeping case data up-to-date within the system. In an
earlier review conducted in 2005, the GAO recommended that
Enforcement document informal referrals of potential criminal matters.8
Our survey found that Enforcement has made progress towards
addressing this recommendation. The Hub manual provides step-by-step
instructions on how to document referrals or consultations with other
regulators. The information can be found in the “Authorities Consulted
and Referrals to Other Regulators” section of the user manual. This
enables personnel to identify the authority consulted or referred, and
provide comments.

However, the data field does not have a much needed date requirement.
(See Figure 2). Therefore, although staff can insert the date requested in
the comments section, it is not required. Therefore, OIG believes that
dates are not consistently entered into the system by all staff. Without a
dedicated date requirement, Enforcement’s ability to manage and oversee

8
 GAO report No. 05-385, Mutual Fund Trading Abuses SEC Consistently Applied Procedures In Setting
Penalties, But Could Strengthen Certain Internal Controls, May 2005, Highlights

Survey of Enforcement’s Hub System                                             September 29, 2008
Report No. 449
                                                   9
the referral process may be limited. Enforcement staff currently has
records and institutional knowledge on the different types of cases and
matters that have been referred, as well as the number of cases that were
consulted or referred with other regulators. However, the division cannot
readily determine and verify whether staff has made prompt referrals until
they require the date field be populated. Also, if a date field is added to
this section, management will be able to sort the date field instead of
looking at each case and reading the comments to see if the case was
referred.

                                -
Figure 2. User Manual Authorities Consulted and Referrals.




                    Consulted with other
                    agancy


                    R~femtdto other agency




Source: Hub User Manual



Recommended Action 2:

    1. Perform an assessment of the authorized users to ensure that the proper
       personnel are utilizing the system fully and appropriately.

   2. Add a date requirement to the "Authorities Consulted and Referrals to
      Other Regulators" section to the Hub system. This will allow Division
      management to determine whether staff referrals were timely.


Standardized Reports Must Be Finalized
The GAO report stated that usefulness of the management reports
generated in the Hub may be limited and that Enforcement's ability to




Survey of Enforcement's Hub System                              September 29, 2008
Report No. 449
                                             10
better manage the investigative process may not be fully realized.9 The
survey revealed concerns regarding the inability to produce and print
reports. The questions and responses on this subject are as follows:

Q1). Using the Hub system allows me to easily search data and produce
detailed reports on certain types of investigations and enforcement
actions, etc.

            Strongly                                                Strongly
             Agree         Agree      Neutral      Disagree         Disagree         Total
               14            81        351            59               26             531
              2.6%         15.3%      66.1%         11.1%             4.9%           100%



Q2). I produce the reports and/or check the status of investigations and
Enforcement actions using the Hub system.

                                        This Task Cannot Be        Not Attempted To
        Daily   Weekly     Monthly           Performed             Perform This Task          Total
          5       26          69                 14                       362                  476
        1.1%     5.5%       14.5%               2.9%                     76.1%               100.1%*
        * Variance Occurred Due to Rounding.

Responses and comments to the survey confirmed that the report area of
the Hub is still not being fully utilized as only 18 percent of respondents
affirmatively stated that the Hub system allows them to easily search data
and produce detail reports and 76 percent of respondents stated they
have not attempted to produce reports or check the status of
investigations using the Hub system.

An impediment to users producing reports from the Hub system is the fact
that Enforcement has not finalized standardized reports. Enforcement
management is working towards making this feature available, but a
substantial amount of work is still needed before this feature is fully
utilized.

Overall, our limited review of the draft standardized reports did not reveal
any issues. However, we asked respondents what options they would
like to have in regards to these reports. Suggestions were to:

        •   Allow for customized reports, so managers can select the fields
            they need for each investigation.
9
 GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, pg.
20.

Survey of Enforcement’s Hub System                                             September 29, 2008
Report No. 449
                                                 11
        •    Make the reports exportable into spreadsheet software, so that
             the data can be manipulated to meet the needs of the office.

Recommended Action 3:

Finalize the reports’ feature and incorporate respondents’ comments to develop,
customized reports that can be exportable into spreadsheets.


Respondents Find Hub System Useful
As a management tool it is not disputed that CATS is severely limited.
Full access to CATS is limited to support personnel and case
management specialists and the system is not user friendly.

The GAO report stressed concern that the Hub system’s potential to
significantly enhance Enforcement’s capacity to better manage the
investigative process may not be fully realized.10 This may present a
concern since the Hub system is still reliant on CATS because information
in Hub starts when information is initiated in CATS.

Our survey covered 12 questions that were used to gauge the Hub
system’s usefulness to the investigative community. The first two
questions below queried continued use of CATS, as follows.

Q1). I still use the CATS for example, to monitor/track investigations or
Enforcement actions to document criminal matters and/or case actions,
etc.
                                     Total
            Yes         No         Responses
            185        238              423
            44%        56%             100%



Q2). I enter data into CATS, instead of using the Hub system.
             Daily           Weekly      Monthly   Occasionally        Rarely          Never       Total
               20              11            8            66             48             394        547
              3.7%            2.0%         1.5%         12.1%           8.8%           72.0%     100.1%*
        * Variance Occurred Due to Rounding.




10
  GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007, pg.
20.

Survey of Enforcement’s Hub System                                              September 29, 2008
Report No. 449
                                                   12
Thus, we found that a significant percentage (44 percent) still uses CATS
for monitoring and tracking investigations and a much smaller percentage
(19 percent) enter data into CATS instead of the Hub system on at least
an occasional basis.

We also surveyed information about the usefulness of the Hub system in
general as follows:

Q3). I have found the Hub system to be user friendly.
          Strongly                                               Strongly
           Agree            Agree       Neutral     Disagree     Disagree        Total
             32              177          276           35          10           530
            6.0%            33.4%        52.1%         6.6%        1.9%        100%



Q4). Using the Hub system has streamlined the processes I use to
monitor and track investigations and/or enforcement actions.
          Strongly                                               Strongly
           Agree            Agree       Neutral     Disagree     Disagree        Total
             13               78          216            80         37           424
            3.1%            18.4%        50.9%         18.9%       8.7%        100%



Q5). The Hub system is a great improvement over CATS and other
databases used in my Division/Office.
          Strongly                                             Strongly
           Agree            Agree       Neutral   Disagree     Disagree       Total
             30              122         318         26           24           520
            5.8%            23.5%       61.2%       5.0%         4.6%        100.1%*
       * Variance Occurred Due to Rounding.




Q6). Overall, I am very satisfied with the Hub system’s features and
capabilities.
         Strongly                                              Strongly
          Agree            Agree       Neutral    Disagree     Disagree       Total
             21             146          303        37           24            531
             4%             27%          57%        7%           5%           100%

The survey showed that while the percentage of those who answered positively
about the Hub system dwarfed those who responded negatively, there still
remained a high percentage of ”neutral” responses to all of these questions.


Survey of Enforcement’s Hub System                                          September 29, 2008
Report No. 449
                                                  13
A very positive sign is that when respondents were asked if they expected to
increase use of the Hub over the next year, 64 percent responded their use
would increase.

Recommended Action 4:

Ensure that Hub system users become aware of the features and advantages of
the Hub System.

Open-Ended Write-In Comments
Although many users were generally satisfied with the Hub system, a
significant number of respondents provided “write-in” comments explaining
their concerns about the system.

The OIG survey had six open-ended questions where Hub users were asked to
provide written comments. In addition, users were asked if they would like to be
contacted to discuss their views of the Hub system. Several members of
Enforcement staff provided their contact information. We judgmentally selected a
sample of users from the headquarters and regional offices that provided their
contact information and some of the specific comments are below:

   •   I would like to see when and who updated information, and what they
       updated. This way we would know if people are actually doing the work.

   •   Certainly I think that we need more information and the system needs to
       be improved in expanding its offerings in the “check the box” areas
       regarding litigation. We cannot give current status of litigation; we need to
       expand on this. Investigations steps could expand more on the options,
       but we can cover deficiencies with narratives.

   •   There is too much effort involved in keeping the system updated. Wish
       this program was more user friendly, and that it was more relevant for his
       cases. Am still unclear of the benefit.

   •   Think there needs to be an explanation to what is automatically updated
       when someone enters information into CATS. Wants to know if the
       information is directly put into the Hub, and what information is not. If there
       is a discrepancy between information in CATS and the Hub, would like to
       get an alert so we can make updates.

   •   At first when I was asked to go to the training I thought that this was going
       to be a great tool but then I found out it is not available to the litigators. So
       this system ended up not available or relevant to a litigation and litigation

Survey of Enforcement’s Hub System                                   September 29, 2008
Report No. 449
                                          14
         staff. This whole thing ended up being a huge disappointment for us. This
         would have been a great tool for us.

   •     Think that the Hub is too time consuming.

   •     The Hub is very effective, but could be more efficient. I like the up-to-date
         information about the cases and the steps that have been taken makes
         this system much better then the old one. It is better we have updates like
         this, unlike the old one which was only quarterly. Also, this information is
         accessible to everyone.

   •     Believes the Hub is a giant step in the right direction and uses the
         program a lot.

These comments show that users see the potential in the system, but some
personnel have concerns about certain aspects of it.

In another survey question, respondents were asked to describe what they found
most and least useful about the Hub system. Tables 1 and 2 below, show the
top ten comments we received. This was developed by comments that were
most frequently provided by the respondents.

    Table 1. Respondents 10 Most Useful Hub Features.
                                  MOST USEFUL FEATURES
       1. Ability to check detailed status of investigations that may be related to my
           matters.
       2. Investigation search function.
       3. Ability to input and access data directly and not rely on a Case
           Management Specialist.
       4. Easier to enter data than CATS system. The data fields are much more
           relevant and user-friendly than CATS, and I like the ability to pull all cases
           by attorney.
       5. That you can review information in Hub and switch back into the
           PHOENIX program.
       6. No paperwork. Timelier reporting.
       7. I didn't have access to CATS before, so just having access to all the open
           investigations (the fact that they exist) is very useful.
       8. Easy to keep track of most recent status update provided
       9. It is useful to have a descriptive, "real time" summary of investigations and
           their status. I have found it most helpful when I am checking to see if
           investigations in other offices relate to investigations in my group factually
           or are similar issues are involved in other cases.
       10. It is an easy system to learn, very user-friendly.
    Source: OIG Generated




Survey of Enforcement’s Hub System                                        September 29, 2008
Report No. 449
                                              15
   Table 2. Respondents 10 Least Useful Information.

                               LEAST USEFUL FEATURES
    1. No "report" functionality… Inability to date to produce written reports that
        substitute for quarterly reports requested of enforcement groups.
    2. Updating case or staff information.
    3. Limited fields for data entry
    4. No consistent guidance about what to put in and when; the drop down
        menus don't seem to incorporate all the likely alternatives, but there is no
        other way to put in data.
    5. The CMS does not receive an automatic notice from Hub re: entering
        related names in CATS.
    6. The inability to produce and print reports.
    7. Drop down boxes do not capture all of the data I would like to enter or do
        not have fields for what I believe my cases are about (at times)
    8. If one application gets updated, the other doesn't.
    9. It is annoying to go back and forth between the two main tabs of case
        information. Also, many of the fields do not seem that flexible.
    10. The "Print Case" feature does not work
    Source: OIG Generated



Recommended Action 5:

Review the survey comments and look for areas that can be enhanced within the
Hub system.




Survey of Enforcement’s Hub System                                     September 29, 2008
Report No. 449
                                           16
                                                               Appendix I


                                     Acronyms

OIG                   Office of Inspector General
GAO                   Government Accountability Office
CATS                  Case Activity Tracking System
Enforcement           Division of Enforcement




Survey of Enforcement’s Hub System                       September 29, 2008
Report No. 449
                                        17
                                                                                       Appendix II


                          Scope and Methodology

We did not conduct this survey as a performance audit, but as a non-audit
service. This survey was not conducted in accordance with generally accepted
government auditing standards.

Scope. The scope of our review covered GAO-07-830 report issued in
August 2007, which pertained to recommendation to Enforcement
regarding the Hub.11 We further reviewed Enforcement’s Hub system
information dating from October 2007 to July 2008. OIG surveyed Hub
users using an automated web based survey that was sent via email to
1,261 authorized users. The survey response period opened June 6,
2008, closed June 27, 2008 and the survey was sent to authorized staff at
headquarters and the Commission’s regional offices in Atlanta, Boston,
Chicago, Fort Worth, Miami, Los Angeles, New York, Philadelphia, Salt
Lake, and San Francisco.

We developed, administered and captured the responses to a
questionnaire that was constructed to determine whether the Hub system
has the needed controls, provides for timeliness of data, is capable of
producing relevant management reports, and is useful to the investigative
community.

This report presents data that the respondents provided in the
questionnaire in a clear and concise manner. We also obtained input from
users regarding needed improvements, user feedback, training feedback,
the Hub’s interface with CATS, and reports within the Hub system.

Methodology. We developed a 34-question survey consisting of 28
closed-ended questions and 6 open-ended questions to which
respondents could write in a response. The questionnaire was created
using a web-based survey tool that automatically captured each individual
closed and open-ended response from the users. The survey results (raw
data) were summarized in different formats including spreadsheets and a
database format to show the response rate percentage for all questions in
the survey.




11
  GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007.

Survey of Enforcement’s Hub System                                               September 29, 2008
Report No. 449
                                                  18
                                                                       Appendix II (continued)

The questionnaire related to Hub issues and was sent through email using
an automated web-based questionnaire to 1,261 full-time and part-time
Enforcement professional, administrative and technical employees
involved in investigations.

The survey was distributed to personnel at the Commission’s
Headquarters and regional offices in June 6, 2008 and responses were
accepted until June 27, 2008. Over the course of three weeks
respondents were sent reminders, encouraging them to respond to the
survey. Of the 1,261 respondents that were emailed questionnaires 577
(46 percent) completed the survey. Our highest response rate to the
questionnaire was 70.7 percent, and indicated that the respondents never
enter data into CATS, followed by 67.8 percent who indicated “neutral”
when asked about being aware of a Hub system manual, and finally, 63.2
percent of respondents indicated they completed either in-house, webcast,
or on-line Hub training.

Prior Coverage. The GAO evaluated Enforcement’s operations in 2007; they
looked at Investigation planning and information systems, and Oversight of the
Fair Fund program.12

In performing the evaluation they found Enforcement’s processes and systems
for planning, tracking, and closing investigations had some significant limitations
that hampered its ability to effectively manage operations and allocate resources.
Enforcement’s management informed GAO of a planned system, the Hub that
would significantly enhance the division’s capacity to manage the investigative
process.

Use of Computer Processed Data. There was no formal testing
performed on the system.




12
  GAO report No. 07-830, Entitled Securities and Exchange Commission -- Additional Actions Needed to
Ensure Planned Improvements Address Limitations in Enforcement Division Operations, August 2007.

Survey of Enforcement’s Hub System                                               September 29, 2008
Report No. 449
                                                  19
                                                                        Appendix III


                  List of Recommended Actions

Recommended Action 1:

   A. Based upon the information provided in the survey results, develop
      formal policies for entering information into the HUB system, which
      could include:

           1. Written policy that "division attorneys" must enter relevant
              data into the Hub system for all new investigations when
              they are opened;
           2. Written policy that requires staff to enter investigative data in
              the Hub system in a timely and/or consistent manner; and
           3. Written policy that makes attorneys responsible for entering
              data into the system for ongoing investigations that were
              initiated before the Hub system was implemented and are
              still being actively pursued.

   B. The formal policy should also clearly define the roles and responsibilities
      of staff assigned to an investigation (i.e. accountant, attorney, case
      management specialist).

   C. Ensure that Hub system users are aware of and have access to the
      manual and/or policy.


Recommended Action 2:

   A. Perform an assessment of the authorized users to ensure that the proper
      personnel are utilizing the system fully and appropriately.

   B. Add a date requirement to the “Authorities Consulted and Referrals to
      Other Regulators” section to the Hub system. This will allow Division
      management to determine whether staff referrals were timely.


Recommended Action 3:

Finalize the reports feature and incorporate respondents’ comments to develop,
customized reports that can be exportable into spreadsheets.




Survey of Enforcement’s Hub System                                 September 29, 2008
Report No. 449
                                         20
                                                     Appendix III (continued)


Recommended Action 4:

Ensure that Hub system users become aware of the features and advantages of
the Hub System.

Recommended Action 5:

Review the survey comments and look for areas that can be enhanced within the
Hub system.




Survey of Enforcement’s Hub System                          September 29, 2008
Report No. 449
                                     21
                                                Appendix IV


                      Management Comments




Survey of Enforcement’s Hub System          September 29, 2008
Report No. 449
                                     22
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     23
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     24
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     25
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     26
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     27
                                          Appendix IV (continued)




Survey of Enforcement’s Hub System               September 29, 2008
Report No. 449
                                     28
                                                                         Appendix V


        Office of Inspector General Response to
                Management Comments

We are pleased that the Division of Enforcement (Enforcement) concurred with 3
of the 5 recommended actions and indicated that appropriate responsive
measures will be taken. We are disappointed that Enforcement only partially
concurred with recommended action 1, because we believe that formal written
policies will help ensure that Hub users understand how to properly utilize the
system to achieve its goals. Further, with respect to recommended action 2, an
assessment of the authorized users would assist in ensuring that the proper
personnel are utilizing the system fully and appropriately. We hope that
Enforcement will reconsider and fully implement all the recommended actions in
the report.
We are puzzled by Enforcement’s extensive discussion and concern about the
use of neutral responses. As we acknowledged in the report, a neutral response
“may simply mean that the respondent has no opinion on the question one way
or the other.” Moreover, the references to neutral responses in the report were
relatively minimal, and the report does not draw any substantive conclusions
from the neutral responses in the report. Nevertheless, as we indicated, we
believe that it would behoove Enforcement to review all the results of the OIG
survey to determine if the Hub system is being utilized to its full extent and if the
users need more guidance or information.
Enforcement developed the Hub system to address the limitations identified by
the GAO in a 2007 report that found that Enforcement’s processes and systems
for planning, tracking, and closing investigations had some significant limitations
that hampered its ability to effectively manage operations and allocate resources.
The OIG survey, which was conducted after discussions with GAO, revealed that
overall, a majority of Hub users are satisfied with the Hub system and feel the
Hub system features are an improvement over the previous system. However,
this report also concluded that several improvements are needed before the
system can become the fully robust and the necessary management tool that is
required within Enforcement. We sincerely hope that Enforcement carefully
considers and implements all the findings and recommendations in this report in
order to ensure that all limitations identified in the GAO report are fully redressed.




Survey of Enforcement’s Hub System                                 September 29, 2008
Report No. 449
                                         29
                                                                              Appendix VI


           Respondent’s Top Survey Comments

Below is a sample of the types of comments received in the Survey.

            Table 3. Improvements to Hub System.
                                      IMPROVEMENT COMMENTS
              1.   The lack of control concerns me; there is no gatekeeper, so any staff
                   person assigned to a matter is able to edit the information previously
                   entered by other staff. There is a button in the Hub for the addition of
                   related names, but the email doesn't go anywhere. The staff “sends”
                   a request for additions, and then wonders why the names were
                   never added.
              2.   Incorporate the complaint system: CTR and Consumer Affairs
                   complaints.
              3.   I would like there to be more choices for certain sections (e.g., status
                   of investigation and status of litigation sections).
              4.   Like you can attach the action memo, you should be able to attach
                   the formal order memo and formal order.
              5.   All of my investigations are in the Hub. I think the Hub could be more
                   detailed about the litigation in a case (Case name, number, status)
                   by having entries for each case.
            Source: OIG Generated



            Table 4. Negative Comments About the Hub.
                                      HUB SYSTEM CONCERNS
              1. They should have waited for the training until all the bugs had been
                 worked out. It was very frustrating to try to use the Hub, only to find
                 out that many of the purported features did not work yet.
              2. Not all info. can be added directly through the Hub yet.
              3. Entering the information in the Hub is duplicative of what we are
                 already required to do ….
              4. The Hub is not very useful on a day-to-day basis since we still need to
                 enter the same data in CATS. Choose one or the other. Adding
                 bureaucratic steps to the staffs' days slows down the process of
                 completing the agency's mission.
              5. We have limited time and resources to conduct investigations and
                 bring enforcement actions - entering data takes time away from our
                 core mission and has no identifiable day to day benefit.
             Source: OIG Generated




Survey of Enforcement’s Hub System                                       September 29, 2008
Report No. 449
                                             30
                                                                 Appendix VI (continued)


         Table 5. Hub System Training.
                                   TRAINING COMMENTS
          1.   I look forward to receiving training on the use of the Hub system
               in the near term.
          2.   I would like to begin using the Hub system to track the status of
               the exam program's referrals once I receive the appropriate
               training
          3.   In training I was told to send a list of related parties to a mailbox
               where someone would collect that information and enter it into
               the system. It appears that no one actually did anything with
               that information as I had to send the complete list to our
               administrator later.
          4.   Periodic regular training
          5.   I found the Hub training to be useful.
          Source: OIG Generated



           Table 6. Hub System and CATS Interface Concerns.
                         HUB SYSTEM and CATS COMMENTS
           1. There appears to be confusion as to whether or not Hub
              "replaces" CATS. Information in Hub cannot exist without the
              CATS system; therefore, it hasn't "replaced" CATS at all. Sr.
              Management has "oversold" the notion of the system, and
              created confusion since CATS must still be used as the
              official record system.
           2. It would be better if we did not have both Hub and CATS.
           3. I find our various Enforcement computer programs duplicate
              each other quite a bit (e.g., CATS, Hub, Phoenix, DMS). The
              same or similar data must be input into a number of
              programs
           4. It should be made into a single, one-stop shopping system
              so that staff only has to enter data into one system and thus
              eliminate CATS, DMS, etc.
           5. Need to continue working to allow Hub to perform all CATS
              functions so that CATS can be phased out as soon as
              possible.
          Source: OIG Generated




Survey of Enforcement’s Hub System                                        September 29, 2008
Report No. 449
                                              31
                                                              Appendix VI (continued)



           Table 7. Improvements to Aid Management.
                           MANAGEMENT COMMENTS

            1. This is the single most-awaited tool by managers and so far,
               is unavailable. Without this function, the only way in which I
               can obtain case information and/or monitor whether my
               employees are inputting the data on a timely basis is to go
               into the system on a case by case basis.
            2. Reports cannot be produced. I find that checking the status
               of individual investigations is useful, but cumbersome due to
               the absence of a reporting function.
            3. I used the Hub to produce closing memos for two
               investigations
            4. Neither CATS not Hub allows branch chiefs to print out
               detailed or comprehensive reports
            5. We need printing capability and the ability to have reports
               show data in different formats--bar charts, pie charts, etc.--
               and to compare various types of cases across offices.
           Source: OIG Generated




Survey of Enforcement’s Hub System                                     September 29, 2008
Report No. 449
                                            32
                       Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061
Fax # 202-772-9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

       Phone: 877.442.0854

       Web-Based Hotline Complaint Form:
       www.reportlineweb.com/sec_oig
